<html>
<title> - NRC REPOSITORY SAFETY DIVISION: STAFF PERSPECTIVE ON YUCCA LICENSE REVIEW</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  NRC REPOSITORY SAFETY DIVISION: STAFF PERSPECTIVE ON YUCCA LICENSE 
                                 REVIEW

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2011

                               __________

                           Serial No. 112-67



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
72-593                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ed8a9d82ad8e989e998588819dc38e8280c3">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             ANTHONY D. WEINER, New York
ROBERT E. LATTA, Ohio                JIM MATHESON, Utah
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            JOHN BARROW, Georgia
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BILL CASSIDY, Louisiana              DONNA M. CHRISTENSEN, Virgin 
BRETT GUTHRIE, Kentucky              Islands
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              HENRY A. WAXMAN, California (ex 
CORY GARDNER, Colorado                   officio)
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    69
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................    71

                               Witnesses

Janet P. Kotra, Senior Project Manager, Division of High-Level 
  Waste Repository Safety, Nuclear Regulatory Commission.........     9
    Prepared statement...........................................    13
    Answers to submitted questions...............................    73
Newton Kingman Stablein, Branch Chief, Division of High-Level 
  Waste Repository Safety, Nuclear Regulatory Commission.........    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................    77
Aby Mohseni, Acting Director, Division of High-Level Waste 
  Repository Safety, Nuclear Regulatory Commission...............    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................    81
Lawrence Kokajko, Acting Deputy Director, Office of Nuclear 
  Material Safety and Safeguards, Nuclear Regulatory Commission..    29
    Prepared statement...........................................    32
    Answers to submitted questions...............................    86
Catherine Haney, Director, Office of Nuclear Material Safety and 
  Safeguards, Nuclear Regulatory Commission......................    36
    Prepared statement...........................................    38
    Answers to submitted questions...............................    92

                           Submitted Material

Remarks of Gregory B. Jaczko, Commissioner, Nuclear Regulatory 
  Commission, before the Regulatory Information Conference, dated 
  March 9, 2005, submitted by Mr. Murphy.........................    53
Subcommittee exhibit binder, submitted by Mr. Shimkus............    99


  NRC REPOSITORY SAFETY DIVISION: STAFF PERSPECTIVE ON YUCCA LICENSE 
                                 REVIEW

                              ----------                              


                         FRIDAY, JUNE 24, 2011

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:57 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Murphy, Pitts, 
Sullivan, Bass, Latta, Cassidy, Gardner, Barton, Green, Markey, 
Barrow, and Waxman (ex officio).
    Staff present: Allison Busbee, Legislative Clerk; Dave 
McCarthy, Chief Counsel, Environment and the Economy; Chris 
Sarley, Policy Coordinator, Environment and the Economy; Sam 
Spector, Counsel, Oversight; Peter Spencer, Professional Staff 
Member, Oversight; Tiffany Benjamin; Democratic Investigative 
Counsel; Alison Cassady, Democratic Senior Professional Staff 
Member; Greg Dotson, Democratic Energy and Environment Staff 
Director; and Ali Neubauer, Democratic Investigator.
    Mr. Shimkus. The subcommittee will now come to order, and I 
recognize myself for 5 minutes for the purpose of an opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today we continue the committee's efforts to understand the 
decision-making process at the NRC, in particular when it comes 
to the closure of Yucca Mountain. Specifically we will examine 
the views and perspective of the non-partisan NRC staff that 
was responsible for conducting the safety evaluation and 
technical reviews of the license application for the Yucca 
Mountain repository and the controversial efforts to shut this 
review down.
    This hearing will provide a public face on the professional 
people at NRC who have labored tirelessly, outside the public 
spotlight, in good faith, to carry out the Nuclear Waste Policy 
Act.
    We will learn about the human effort that has gone into 
planning for and reviewing the Yucca Mountain license, an 
effort that represents first-of-its-kind work. This is work to 
ensure a repository will meet the EPA standards for 1 million 
years. The NRC has worked for more than 2 decades to prepare 
for and to conduct the license evaluation.
    This important job has required dedicated staff, 
representing a range of scientific disciplines to do the review 
with objectivity and integrity so the public can trust the 
work. There are geochemists, hydrologists, climatologists, 
various engineering disciplines, health physicists, 
volcanologists, and inspectors. The work NRC staff has put into 
the Yucca Mountain license application has been by all evidence 
world class, and we should expect no less from the NRC. Now 
that very staff fears its work has been caught up in a 
dysfunctional agency which is threatening their ability to 
maintain public trust in the work they produce.
    We will hear from some of the people who would ensure that, 
should NRC approve DOE's license application for Yucca 
Mountain, the repository will be safe. We should not forget how 
much money and human effort has gone into development of this 
project. To date we have spent $15 billion, probably half a 
billion dollars alone by the NRC. The American rate payer and 
taxpayer are owed something for this effort, yet that effort 
risks getting swept away by the political agenda of this 
administration and the NRC Chairman.
    It is important for this committee to gather information 
about what is behind the license review work in terms of staff 
expertise, years of commitment and integrity.
    We want to learn the facts about the status of their work: 
Is it complete, what else needs to be done, and what kind of 
direction they received from the Chairman and the NRC 
management to shut down their work. Last week we took troubling 
testimony from the Inspector General about the Chairman's 
influence and actions to strategically work to impose his views 
on the Commission. Now we find this virus has infected even 
deeper than we imagined with manipulation by senior management 
of career staff's scientific findings.
    These staff who worked on the program can explain exactly 
where they were in completing their work. They can explain what 
they were doing to carry out their responsibilities under the 
Nuclear Waste Policy Act and how the Chairman's and 
Commission's actions affected this activity. And they can 
explain what they believe it will take to resurrect the review 
of the Yucca Mountain application.
    We can also get the facts about the current efforts to 
preserve the staff's decades of work on this project and 
whether those efforts will provide the public a full view of 
their analysis. This is new information we will examine today 
to determine whether staff continues to be restricted in 
providing a full and transparent report of their work to the 
public, which has been promised by the Chairman.
    We want to understand how information flows from staff who 
seek policy guidance up to the Commission and how that has been 
handled when it comes to the Yucca Mountain license and whether 
they believe staff is getting the support it needs from 
management, the Chairman and the Commission.
    Let me express my gratitude to the witnesses from the 
division level, Dr. Kotra, Dr. Stablein, Mr. Mohseni, and Mr. 
Kokajko, and their supervisor, Ms. Haney, for taking the time 
to appear today. It is unusual to hear directly from staff, but 
this Yucca Mountain matter is unusual itself, and your 
testimony is very important to our investigation.
    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.001
    
    [GRAPHIC] [TIFF OMITTED] T2593.002
    
    Mr. Shimkus. And I do appreciate your attendance. And with 
that I yield back my time, and I will turn now to the ranking 
member, Mr. Green, for 5 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. Thank you, witnesses, 
for your patience. I apologize for running late.
    Thank you for holding the hearing. I want to thank our 
witnesses like our Chair did for appearing before the Committee 
to discuss the issue of Yucca Mountain.
    As you know, I have recently toured Yucca Mountain and went 
on a CODEL organized by Chairman Shimkus, and I appreciate the 
opportunity to view the facility up close and to meet with 
local individuals to hear their thoughts on Yucca Mountain.
    There has been a lot of discussion on this committee on the 
decision by the administration not to proceed with Yucca 
Mountain. We have had a long series of hearings related to the 
majority's ongoing investigation. Today we will hear from the 
NRC staff on their thoughts regarding Yucca Mountain, whether 
they feel the issue was properly handled.
    I appreciate hearing from staff. I have read the testimony, 
and this is beginning to sound like we are airing the NRC's 
dirty laundry. But it seems like we do that in Congress pretty 
often.
    On June 14, this committee held a hearing with the NRCIG on 
the report entitled ``The NRC's Chairman's Unilateral Decision 
to Terminate the NRC's Review of the DOE Yucca Mountain 
Repository License Application.'' The Inspector General's 
report found that Chairman Jaczko had not been forthcoming with 
the Commissioners but that ultimately he acted within his 
authority as NRC Chair, none of which suggests the NRC violated 
the law.
    The report also did not review whether or not the actual 
decision to close Yucca was appropriate. The report did shed 
some light on obviously internal issues within NRC that should 
be evaluated and address and which we will hear about yet again 
today.
    I appreciate the Chair's desire to continue to hold the 
hearings on Yucca Mountain. As I have stated several times, the 
United States alone produced 806 billion kilowatt hours of 
nuclear power in 2008 making us the biggest producer of nuclear 
power in the world. No matter what decision we make on Yucca 
Mountain, we still have a nuclear waste disposal issue. So the 
25-year-old Yucca Mountain dilemma remains, and we need to 
resolve the situation sooner rather than later. However, a lot 
of the committee and personal staff in this room should be 
working on coal ash legislation and negotiations right now, and 
the time that were spent on this Yucca Mountain hearings could 
have been spent on other issues before our committee.
    I hope when we return from the recess we have a bipartisan 
coal ash bill to mark up, Mr. Chairman, in the Full Committee, 
and we can begin working on other issues in our jurisdiction. I 
yield back my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the vice chairman of the subcommittee, Mr. 
Murphy, for 5 minutes.
    Mr. Murphy. Thank you, Mr. Chairman. I know we have been 
delayed here, and it is important we hear the witnesses. So I 
am going to waive my opening statement and just submit it for 
the record.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, 
Chairman Emeritus Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. This is the 
fourth hearing this subcommittee has held on the Yucca Mountain 
Nuclear Waste Repository, and today's hearing will examine the 
concerns of some of the NRC staff about the decision to 
terminate the NRC's review of Yucca Mountain.
    I appreciate the witnesses being here today and share in 
their concerns with the committee. I can understand why 
technical staff, who have worked for years on Yucca Mountain, 
are frustrated and angry that the NRC may never approve or deny 
the license application. I believe they care deeply about the 
mission of the NRC and its role as an independent agency. But 
what I have a hard time accepting is the assertion that the 
decision to cease review of the license application at NRC was 
somehow a unilateral decision by a rogue chairman.
    The Secretary of Energy determined that Yucca Mountain is 
not a workable option. The Department of Energy, which would be 
responsible for actually building the repository and managing 
the waste, asked to withdraw the license application. In the 
fiscal year 2011 budget passed in April, to avert a government 
shutdown, Congress allocated no money to DOE for Yucca Mountain 
and just $10 million to NRC to close down the licensing review. 
For fiscal year 2012, the NRC Commissioners approved a budget 
requesting just $4 million in order to terminate all Yucca 
Mountain program activities. And OMB allocated no money to NRC 
for the high-level waste program for 2012.
    I understand why some members believe the decision to shut 
down the review of Yucca Mountain was political, but from what 
I have seen, the key decision was DOE's. DOE decided to 
withdraw the license application. Once DOE made this decision, 
the NRC's options were limited. Continuing its review risks 
squandering millions of taxpayer dollars.
    While I have said on several occasions that the Yucca 
Mountain project merits independent and objective oversight, I 
am also concerned that this Subcommittee's myopic focus on 
Yucca Mountain has diverted its attention from other pressing 
nuclear safety issues.
    This week we learned of significant nuclear safety problems 
in the United States from two different sources. First, 
Congressmen Ed Markey and Peter Welch released a GAO report 
about radioactive leaks from underground pipes at the Nation's 
nuclear power plants. As nuclear power plants age, their 
underground piping tends to corrode. But the condition of many 
underground pipes at plants across the country is unknown. GAO 
noted in its report that NRC has no plans to evaluate the 
extent to which volunteering industry initiatives are adequate 
to detect leaks and corrosion in these underground pipes. As a 
result, GAO found that NRC has ``no assurance'' that these 
initiatives will promptly detect leaks before they pose a risk 
to public health and safety. We ought to be holding a hearing 
on that subject.
    Second, an investigation by the Associated Press concluded 
that Federal regulators at NRC have been working closely with 
the nuclear power industry to keep the Nation's aging reactors 
operating within safety standards by weakening those standards 
or not enforcing them. The AP investigation found what it 
called a recurring pattern. ``Reactor parts or systems fall out 
of compliance with the rules. Studies are conducted by the 
industry and government, and all agree that existing standards 
are unnecessarily conservative. Regulations are loosened, and 
the reactors are back in compliance.'' We ought to be 
investigating that issue.
    The GAO report and AP investigations raise serious concerns 
about the safety of reactors in the United States, especially 
as NRC continues to consider and approve additional license 
extensions for the aging fleet.
    But we aren't talking about that today. We are again 
talking about Yucca Mountain, a program with no funding and no 
apparent future. I question whether this is the right priority 
for our Nation.
    With that said, I thank the witnesses for being here today. 
I look forward to their testimony. I understand their concerns. 
I feel their pain. But if DOE puts in an application and DOE 
withdraws its application, it is hard to rule on that 
application. And then when with this funding no longer 
available, I don't know what NRC, under any chairman, could do 
under those circumstances.
    I yield back my time.
    Mr. Shimkus. The gentleman yields back his time. They have 
called one vote on the floor, so I think the way we will 
proceed, if it is OK with my friends in the minority, is that 
we will go vote, then we will come back and then we will start 
your testimony after we do the swearing in. And with that I 
will call----
    Mr. Pitts. Mr. Chairman, that would be what, about 10 
minutes we should be back, 10, 15 minutes?
    Mr. Shimkus. Well, it is a 15-minute vote, so I would say 
we will start in 15 or 20 minutes. And I want to ask unanimous 
consent that anyone who has a written opening statement they 
want to submit for the record be allowed to do so. Without 
objection, so ordered. The hearing is recessed.
    [Recess.]
    Mr. Shimkus. I will call the hearing back to order, and you 
are at your desk but the Chair will call you, the witnesses, 
which is Dr. Janet P. Kotra, Senior Project Manager in the 
Division of High-Level Waste Repository Safety at the NRC; Dr. 
N. King Stablein, Branch Chief in the Division of High-Level 
Waste Repository Safety at the NRC; Mr. Aby Mohseni, Acting 
Director in the Division of High-Level Waste Repository Safety 
at the NRC; Mr. Lawrence Kokajko, Acting Deputy Director for 
the Office of Nuclear Material Safety and Safeguards at the 
NRC; and Ms. Catherine Haney, Director of the Office of Nuclear 
Material Safety and Safeguards at the NRC. Again, thank you for 
joining us.
    As you know, the testimony that you are about to give is 
subject to Title 18, Section 1001, of the United States Code. 
When holding an investigative hearing, this Committee has the 
practice of taking testimony under oath. Do you have any 
objection to testifying under oath?
    Mr. Stablein. No.
    Mr. Mohseni. No.
    Mr. Kokajko. No.
    Ms. Kotra. No.
    Ms. Haney. No.
    Mr. Shimkus. For the record, all respondents stated no. The 
Chair then advises you that under the rules of the House and 
the rules of the Committee, you are entitled to be advised by 
counsel. Do you desire to be advised by counsel during your 
testimony today?
    Ms. Kotra. No.
    Mr. Stablein. No.
    Mr. Mohseni. No.
    Mr. Kokajko. No.
    Ms. Haney. No.
    Mr. Shimkus. And the Chair acknowledges that all 
participants stated no. In that case, if you would please rise 
and raise your right hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Shimkus. Thank you very much, we will now go into a 5-
minute summary of your statement, and we would like to start 
left to right with Dr. Kotra. Thank you, ma'am. I appreciate 
you being here. And you are recognized for 5 minutes.

 TESTIMONY OF JANET P. KOTRA, SENIOR PROJECT MANAGER, DIVISION 
   OF HIGH-LEVEL WASTE REPOSITORY SAFETY, NUCLEAR REGULATORY 
COMMISSION; NEWTON KINGMAN STABLEIN, BRANCH CHIEF, DIVISION OF 
    HIGH-LEVEL WASTE REPOSITORY SAFETY, NUCLEAR REGULATORY 
  COMMISSION; ABY MOHSENI, ACTING DIRECTOR, DIVISION OF HIGH-
 LEVEL WASTE REPOSITORY SAFETY, NUCLEAR REGULATORY COMMISSION; 
  LAWRENCE KOKAJKO, ACTING DEPUTY DIRECTOR, OFFICE OF NUCLEAR 
MATERIAL SAFETY AND SAFEGUARDS, NUCLEAR REGULATORY COMMISSION; 
   AND CATHERINE HANEY, DIRECTOR, OFFICE OF NUCLEAR MATERIAL 
      SAFETY AND SAFEGUARDS, NUCLEAR REGULATORY COMMISSION

                  TESTIMONY OF JANET P. KOTRA

    Ms. Kotra. Good morning, Chairman Shimkus, Mr. Green and 
members of the Subcommittee. Thank you for inviting me to 
participate in your hearing today. My name is Janet Kotra. I 
work as a senior scientist and project manager in the Division 
of High-Level Waste Repository Safety at the NRC. I joined NRC 
more than 27 years ago as a postdoctoral fellow. I have been 
one of the major contributors in developing NRC's regulations 
for the proposed Yucca Mountain Repository. Along with my 
scientific and engineering colleagues, I have participated in 
the NRC staff's independent safety review of the license 
application for the proposed repository at Yucca Mountain and 
in preparing portions of the NRC staff's Safety Evaluation 
Report which you will often hear referred to as the SER.
    As leader of NRC's high-level waste public outreach team, 
it has also been my job to organize and conduct more than three 
dozen public meetings and workshops in Nevada and California to 
explain NRC's oversight role, regulatory process and review 
procedures.
    Of the many hats that I have worn at NRC over the years, 
this is by far been one of the most personally satisfying and 
enriching. I spent more then 10 years on the road meeting with 
people of the affected units of local government and from the 
affected tribe near Yucca Mountain, Nevada, the Timbisha 
Shoshone.
    I spoke with people about NRC's oversight role and review 
procedures. I helped individuals and local officials understand 
their options for participating in NRC's hearing process. I 
explained how the NRC staff reviews and considers public 
comments on proposed NRC regulations. I listened to people's 
concerns and learned how to be more effective as a public 
servant. Among the comments I heard over and over again were 
how will NRC make its safety decision and how can we affect 
NRC's decision or take part in your process, if we don't 
understand how your decisions are made? Over the course of 
those 10 years, we worked hard at becoming more transparent. We 
took the steps needed to make our speech clearer, our documents 
more available and our presentations more understandable. We 
assured our audiences that once the application came in, we, as 
independent scientists and engineers, would conduct a thorough, 
technically sound and fair review. We also promised that our 
findings in the form of an SER would be made available for all 
to see and evaluate for themselves. And then, those findings, 
along with the application and all contentions admitted by an 
independent hearing board, and there were almost 300 of them, 
would be subject to an open and impartial hearing before any 
decision would be made to deny or authorize construction of a 
repository at Yucca Mountain. I assured people over and over 
again that this would be the case because I believed it myself. 
I believed it because this is how NRC conducts business. This 
is how NRC's licensing process has worked when NRC decided 
whether or not to license reactors or other large nuclear 
facilities throughout our more than 35-year history. And I 
believed it because it is consistent with the law, consistent 
with NRC's regulations, and consistent with our role as an 
independent safety regulator as established for us by you, the 
Congress.
    Then, as reported recently by the NRC's Inspector General, 
Chairman Jaczko ordered staff to postpone issuance of SER 
Volumes 1 and 3. Division staff and managers became concerned 
that the other Commissioners might not be fully aware of the 
policy, legal and budgetary consequences of such redirection 
and felt that guidance from the entire Commission was called 
for.
    I was directed to prepare a staff memorandum for all five 
Commissioners to be signed by the Office Director, Ms. Haney. 
We hoped that given an honest assessment of the facts, fair-
minded Commissioners would see the need to provide staff with 
clear policy direction as we struggled to honor our conflicting 
duties and instructions. We were told, however, that the 
memorandum should make no reference to any of the related 
policy issues and that I should prepare it only as a status 
report.
    Over the coming months, using a highly irregular process, I 
was asked to incorporate an inordinate number of changes from 
senior agency managers. I was willing to comply, despite my 
growing reservations, so long as descriptions of the program's 
history and status remained reasonably accurate and consistent 
with my knowledge of the facts.
    Only later, in September of last year did it become clear 
that rather than to just postpone issuance of individual SER 
volumes, the Chairman's intent was to terminate the staff's 
safety review altogether. Using the continuing resolution as 
justification, the Chairman directed that all work on the SER 
must stop, including Volume 3 on post-closure safety, which was 
already complete, and undergoing management review. Written 
guidance came later on October 4. The Chairman met with us in 
the staff's Yucca Mountain team meeting just after Columbus 
Day. He explained that the decision to shut down the staff's 
review was his alone and that the staff should move to shut 
down the NRC's Yucca Mountain program altogether. This, despite 
the fact that then, as now, the Nuclear Waste Policy Act 
remains in effect, the hearing process continues, and I would 
have to disagree with Mr. Waxman's assertion, and no Commission 
decision has even today been issued on whether the application 
can be legally withdrawn.
    As the months wore on and work on the memorandum continued, 
formal and informal comments from the Deputy Executive Director 
for Operations, the Chief Financial Officer and the General 
Counsel were incorporated. These comments repeatedly diluted or 
contradicted the language prepared by the high-level waste 
staff and staff of the Atomic Safety and Licensing Board Panel. 
Both had described the severe difficulties faced by our offices 
struggling to cover the costs of shutting down a complex and 
valuable national program and infrastructure, while at the same 
time supporting an ongoing hearing.
    Eventually, I could no longer, in good conscience, agree 
with the memo I was preparing. I formally withdrew my 
concurrence, consistent with NRC's procedures, on February 1 of 
this year. I did so because senior managers insisted on changes 
that, to me, implied that it was the NRC staff who voluntarily, 
or, worse still, on its own volition, terminated NRC staff's 
independent review of the Yucca Mountain License application 
and sought to end support for a full and impartial hearing to 
review the application.
    Gentlemen, to me, this was grossly misleading and 
unacceptable. My colleagues who worked tirelessly to conduct a 
fair, independent and technically sound safety review and to 
prepare the required SER, stood down from those obligations 
only with enormous reluctance and heavy hearts.
    Let me be very clear. We did not choose to abandon our duty 
under the law. We were directed explicitly by Chairman Jaczko 
to terminate our review. Yet, on multiple occasions I was 
prohibited from including in the status report any statement to 
that effect. The memorandum made no reference to the facts 
surrounding the termination of the staff's safety review. 
Without this crucial context, the reader is left with a 
mistaken impression that the termination and orderly shutdown 
of the licensing review and hearing was the staff's preferred 
and well-considered course of action, initiated by the 
technical staff. Nothing could be further from the truth.
    In closing, as a member of the NRC's technical staff, I 
remain deeply concerned that the ground-breaking regulatory 
work accomplished over so many decades by my colleagues not be 
lost or wasted. This seminal work is documented in the draft 
SER volumes staff has prepared. Irrespective of what ultimately 
becomes of Yucca Mountain, preservation and dissemination of 
the results of NRC staff's review and findings are of critical 
importance to future decisions regarding disposition of the 
Nation's high-level waste and spent nuclear fuel. The public 
deserves access to what we learned and accomplished during our 
safety review. If the Blue Ribbon Commission does indeed find 
that deep geologic disposal is inescapable as a solution for 
our Nation's spent fuel and high-level radioactive wastes, the 
lessons that NRC's technical staff learned from reviewing and 
evaluating compliance of the first license application for a 
geologic repository in the United States must be preserved, 
studied and shared as the resources they truly are.
    Please help us, the NRC technical staff, keep the 
commitments we made to the public about the openness and 
transparency of NRC's safety review at Yucca Mountain. I 
implore you to take whatever action you deem necessary to allow 
completion and prompt, public release of the complete, 
unredacted and uncensored volumes of the NRC staff's SER.
    I want to thank you for your concern and attention to these 
important matters, and I welcome any questions you may have.
    [The prepared statement of Ms. Kotra follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.003
    
    [GRAPHIC] [TIFF OMITTED] T2593.004
    
    [GRAPHIC] [TIFF OMITTED] T2593.005
    
    [GRAPHIC] [TIFF OMITTED] T2593.006
    
    [GRAPHIC] [TIFF OMITTED] T2593.007
    
    Mr. Shimkus. Thank you very much for your testimony. Now we 
would like to turn to Dr. N. King Stablein, Branch Chief of the 
Division of High-Level Waste Repository Safety. Sir, your full 
statement is in the record. You have 5 minutes.

              TESTIMONY OF NEWTON KINGMAN STABLEIN

    Mr. Stablein. Good morning, Chairman Shimkus, Mr. Green, 
and members of the subcommittee. Thank you for inviting me to 
participate in your hearing today.
    My name is Dr. Newton Kingman Stablein. I have spent most 
of my 27 years at the NRC involved in NRC's prelicensing and 
licensing activities related to DOE's efforts to support an 
application to construct a high-level waste geological 
repository at Yucca Mountain. I am currently Chief of the 
Project Management Branch responsible for leading the review of 
DOE's license application by the NRC staff and its contractor 
since 1987, the Center for Nuclear Waste Regulatory Analyses.
    The NRC received DOE's license application in June of 2008 
and, after completing an acceptance review, docketed the 
application in September 2008. The NRC staff prepared to 
complete its review of DOE's application and production of its 
Safety Evaluation Report, or SER, within approximately 18 
months, by March or April 2010.
    In March 2009, the Executive Director for Operations 
informed the Commission that because of reduced resources in 
the fiscal year 2009 budget and expected cuts in fiscal year 
2010, the NRC staff would complete the SER in fiscal year 2012, 
2 years later than the original schedule. The staff revamped 
its plans for the SER, opting to issue it in five separate 
volumes on a staggered schedule, with the first volume to be 
published in March 2010.
    In January 2010, the staff informed the Atomic Safety and 
Licensing Board that the NRC staff would issue Volume 1 on 
general information and Volume 3 the post-closure volume, by no 
later than August and November 2010, respectively.
    The staff had Volume 1 ready for publication in June 2010, 
2 months ahead of the August target. Around the same time, 
Chairman Jaczko issued a memorandum to the EDO stating that it 
was in the best interests of the Agency ``not to alter the 
schedule for the completion of SER volumes at this time'' and 
directing that Volume 1 be published no earlier than August 
2010. He added that subsequent volumes should be issued 
consistent with and not earlier than the schedule provided to 
the Commission in March 2010. Volume 1 was published in August 
2010.
    Volume 3 could have been ready for publication in 
September, but because the Chairman had directed staff not to 
issue it before November 2010, the final review steps leading 
to its publication were slowed.
    The staff expected to publish Volume 3 in November 2010 and 
the other three volumes by March 2011. However, on September 
30, the Director of the Office of Nuclear Material Safety and 
Safeguards instructed NRC staff to transition immediately to 
closure of Yucca Mountain licensing activities and to cease 
work on the SER volumes. Within the next couple of weeks, the 
Chairman met with staff and affirmed that it was his decision 
to discontinue work on the SER and to transition to closure 
activities, including the issuance of technical evaluation 
reports, or TERs, instead of the SER volumes.
    This decision had a profound impact on the Yucca Mountain 
team and its program. As a supervisor in this program, I am 
keenly aware of the agony experienced by the NRC staff as it 
dutifully followed the Chairman's direction. Many of the staff 
have worked on the Yucca Mountain program for two decades or 
longer. To be denied the opportunity to finish the SER because 
of what appeared to be the arbitrary decision of one 
individual, was wrenching. The staff was not aware of any 
substantive discussion and airing of issues at the Commission 
level, as would be expected for a decision of this magnitude.
    Although the staff was deeply affected by the Chairman's 
decision, it acted immediately to follow his direction to 
develop TERs with no regulatory findings in place of the 
planned SER volumes. On March 31, 2011, the staff presented the 
post-closure TER to NMSS management for approval to publish. 
Over 2 months later, the NMSS office director disapproved 
publication of the document in its present form and that stated 
that it would need modifications to be published.
    These latest developments are the most recent and clearest 
example of how the staff has been denied the opportunity to 
fulfill its duty to make its technical insights and information 
available to the Nation and to thereby enrich the ongoing 
discussion about what path to follow in dealing with nuclear 
waste. The work of a generation of scientists and engineers 
continues to be systematically suppressed to the detriment of 
these patriots and the Nation at large. Thank you.
    [The prepared statement of Mr. Stablein follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.008
    
    [GRAPHIC] [TIFF OMITTED] T2593.009
    
    [GRAPHIC] [TIFF OMITTED] T2593.010
    
    [GRAPHIC] [TIFF OMITTED] T2593.011
    
    Mr. Shimkus. Thank you for your testimony. Now, I would 
like to turn to Mr. Aby Mohseni, Acting Director in the 
Division of High-Level Waste Repository Safety. Welcome. Your 
full statement is into the record, and you have 5 minutes.

                    TESTIMONY OF ABY MOHSENI

    Mr. Mohseni. Thank you very much Mr. Chairman, Ranking 
Member Green, and members of the committee, for the opportunity 
to be here today. My name is Aby Mohseni. I worked for the 
State of Washington before joining the NRC in 1990. I became 
the Deputy Director for Licensing and Inspections in the 
Division of High-Level Waste Repository Safety in 2006. I am 
currently the Acting Director of this Division. I will briefly 
describe the division's role, accomplishments and challenges.
    The U.S. Congress enacted the Nuclear Waste Policy Act 
directing and entrusting the NRC scientists to determine the 
safety and security of the Yucca Mountain Geological Repository 
for the Nation. NRC has invested almost 3 decades preparing for 
and conducting a safety review of the proposed Yucca Mountain 
design.
    My staff and I are quite used to challenges. Reviewing the 
performance of a mountain over time frames of a million years 
using a first-of-a-kind, risk-informed, performance-based 
methods is a challenge. But that scientific challenge seemed to 
be the easy one. Less than a year after the Department of 
Energy submitted its long-awaited license application to build 
a geological repository at Yucca Mountain, Nevada, in 2008, our 
budget was cut by 30 percent. Despite that and subsequent cuts, 
we, NRC staff and scientists, impressed with the task entrusted 
to us for the Nation's safety, absorbed the pressures and 
maintained our focus on our mission.
    Although resilient from our adaptation to budgetary 
pressures, we were unprepared for the political pressures and 
manipulation of our scientific and licensing processes that 
would come with the appointment of Chairman Jaczko in 2009. We 
believe that any political manipulation of the scientific and 
licensing process is an assault on the responsibility to the 
NRC mandated by Congress.
    We staff felt that manipulation at the Commission level, as 
described in the NRC's Inspector General report issued earlier 
this month, permeated the activities of my division by some 
senior managers.
    For example, some NRC senior managers directed the staff to 
suppress information to the Commission by providing them a 
status report instead of a policy report on the closure of 
Yucca Mountain. Whereas a policy report empowers the Commission 
with the staff's findings and recommendations required to make 
sound policy for the Nation's safety, a status report merely 
informs them of decisions made, leaving the burden of discovery 
on individual Commissioners.
    Additionally, some senior managers contributed to the 
manipulation of the budget process and information to 
apparently make sure that the Yucca Mountain project would be 
left unfunded even if the license application was still before 
the NRC.
    Furthermore, apparently at the direction of the Chairman 
and with the aid of some senior managers, the disclosure to the 
rest of the Commission of the staff's views on the impacts of 
budget cuts and allocations were suppressed. I note that 
keeping the full Commission fully and currently informed is a 
statutory requirement.
    Despite being entrusted with independent decision making, 
when confronted with these concerns by the Office of Inspector 
General, these senior managers essentially responded that the 
Chairman's office made them do it. I ask who holds these 
managers accountable? Chairman Jaczko?
    We at the NRC are at a crossroads. Apparently, the NRC's 
senior leadership is ineffective in upholding the integrity of 
this Agency. Politics are influencing some of the NRC's staff's 
work. The question is, could politics at some point affect the 
staff's technical and regulatory findings and decisions? This 
is not where an independent safety organization should be. If 
the NRC were to find any of our licensees so lacking, we would 
require of them a corrective action plan. We should hold 
ourselves at least to the same standards. The NRC needs to 
enact a corrective action plan.
    I cannot overemphasize the importance of your oversight 
role. If it were not for your oversight, much of what has been 
revealed would remain behind closed doors. Given the recent 
revelations, I am not sure that you, the oversight Committee, 
made up of the representatives of the citizens of United States 
of America, entrust us at the NRC to always be and remain 
objective, independent and credible to ensure the health and 
safety of the American public. We need to re-earn your trust.
    Thank you for this opportunity.
    [The prepared statement of Mr. Mohseni follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.012
    
    [GRAPHIC] [TIFF OMITTED] T2593.013
    
    [GRAPHIC] [TIFF OMITTED] T2593.014
    
    Mr. Shimkus. Thank you, Mr. Mohseni. Now I would like to 
turn to Mr. Lawrence Kokajko, Acting Deputy Director for the 
Office of Nuclear Material Safety and Safeguards at the NRC. 
Sir, again, your full statement is in the record. You have 5 
minutes.

                TESTIMONY OF LAWRENCE E. KOKAJKO

    Mr. Kokajko. Thank you. Mr. Chairman, Ranking Member Green, 
and members of the Subcommittee, my name is Lawrence Kokajko, 
and I am honored to appear before you today to provide my 
perspective on those internal NRC issues----
    Mr. Shimkus. Can you check----
    Mr. Kokajko. Perspective on those internal issues----
    Mr. Shimkus. And I hate to interrupt you. Maybe pull it a 
little bit closer to you.
    Mr. Kokajko. Hello?
    Mr. Shimkus. That is much better.
    Mr. Kokajko. Thank you. I will just start over, if you 
don't mind. Mr. Chairman, Ranking Member Green, and members of 
the subcommittee, my name is Lawrence Kokajko, and I am honored 
to appear before you today to provide my perspective on those 
internal issues associated with the review of the Department of 
Energy's license application for the proposed repository at 
Yucca Mountain, Nevada.
    Currently, I am the acting Deputy Office Director for the 
Office of Nuclear Material Safety and Safeguards, although my 
official position is the Director of the Division of High-Level 
Waste Repository Safety. I have been with the NRC since 1989, 
and I have regulatory experience in reactors, materials and 
waste.
    I had always wanted to be associated with a program of 
national significance, and when the opportunity to be the 
Director presented itself, I enthusiastically accepted. Part of 
my enthusiasm was due to the repository safety staff itself. 
All employees of the NRC are dedicated to its mission to assure 
safety, security and environmental protection, and the members 
of the repository safety division are no exception.
    Moreover, in 1987, agency leadership, with great foresight, 
contracted with the Southwest Research Institute that organized 
the Center for Nuclear Waste Regulatory Analyses as the NRC's 
only federally funded research and development center and to be 
a conflict-of-interest-free entity. Both the NRC and Center 
employees have expertise in geological and related sciences and 
engineering, and they are dedicated professionals that have 
spent decades in preparation for this application.
    Besides wanting to work on a program of national 
significance, I wanted to work with these talented 
professionals. I recognized their unique set of knowledge, 
skills and abilities and the challenging subject matter and 
context for this important major Federal action. Quite frankly, 
I am very concerned about the loss of this disposal expertise 
as spent nuclear fuel continues to increase and the U.S. 
program is now uncertain. I hasten to add that geologic 
disposal remains the internationally recognized means to 
isolate high-level radioactive waste for very long time 
periods.
    The Nuclear Regulatory Commission is an independent agency, 
and as such, the agency has the responsibility to demonstrate 
this independence by openness and transparency in its 
deliberations and decision making. This can be displayed by 
collaborating and assuring all information is available and 
discussed. Agency independence and internal processes should be 
jealously guarded, and the appearance of political influence in 
such deliberations and decision-making should be avoided at all 
costs.
    Given that the Congress did not amend the Nuclear Waste 
Policy Act or enact other legislation to discontinue 
development of Yucca Mountain, other legitimate internal 
processes could have occurred. For example, the Atomic Safety 
and Licensing Board could have agreed that the Department of 
Energy could withdraw the repository application; the 
Commission itself could have overturned the June 29, 2010, 
Atomic Safety and Licensing Board's decision promptly; or 
alternatively, the collective Commission could have decided 
through a vote and subsequent staff requirements memorandum 
that the staff should formally suspend its review pending 
legislative or other adjudicatory action.
    Staff would have willingly followed any outcome from a 
faithfully executed legitimate process. Until such decision, 
staff was under the distinct impression that it could continue 
its safety review as long as sufficient funding existed. 
Further, I would go so far to say that many think as I do, the 
Nation paid for this review, and the Nation should get it.
    I would like to have seen the Commission act collegially to 
address this issue. As noted in the recent Office of Inspector 
General report, the decision to close the program by the end of 
fiscal year 2011 was made without the entire Commission being 
fully informed or acting in concert. When this became apparent, 
executive staff leadership should have acted as a brake to 
afford the Commission information and time to assess and 
develop appropriate program direction. This would have enabled 
more budget and program information to rise to the entire 
Commission and would have precluded decisions based on 
incomplete information or perception.
    Regardless of the NRC's evaluation of the technical merits 
of the application, the staff takes no position on actual 
construction and operation of a proposed repository. 
Ultimately, it is up to the Congress to determine whether to 
build and operate the facility. Any such national policy 
decision by Congress would be based upon the science and 
engineering performed by the Department of Energy and the 
subsequent safety evaluation and adjudication by the NRC, 
assuring that this meets the standards set by the Environmental 
Protection Agency.
    NRC requires complete and accurate information in all 
material respects in relation to the repository license 
application. The Department of Energy has not identified a 
safety defect in the application; thus, it remains valid and 
before the NRC. I believe science and the scientific process 
must inform and guide NRC's regulatory decision making. I 
further believe we have been open and transparent with our 
stakeholders with regard to our regulatory duties as this 
Chairman and this Commission have emphasized. Technical staff 
associated with this program are dismayed by what has happened 
thus far, and we would hope the day comes soon when we can 
return to being boring regulators.
    For the record, this is not meant to be a pejorative 
remark. Our mission and our work are vitally important to the 
Nation, and we take our responsibility seriously. The Agency 
should always be in the background as the fundamental pillar, 
assuring safety as our number one priority, keeping in mind 
that we must be ever vigilant. This is not exciting work to 
many, but we all appreciate our roles as Federal employees, 
assuring the safety of our fellow citizens. This current 
situation is distracting and does the Agency and its people no 
good.
    Thank you.
    [The prepared statement of Mr. Kokajko follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.015
    
    [GRAPHIC] [TIFF OMITTED] T2593.016
    
    [GRAPHIC] [TIFF OMITTED] T2593.017
    
    [GRAPHIC] [TIFF OMITTED] T2593.018
    
    Mr. Shimkus. Thank you. And we will now turn to Ms. 
Catherine Haney, Director of the Office of Nuclear Materials 
Safety and Safeguards at the NRC. Again, your full statement is 
in the record. You have 5 minutes and welcome.

                  TESTIMONY OF CATHERINE HANEY

    Ms. Haney. Thank you. Good morning, Chairman Shimkus and 
Ranking Member Green and members of the subcommittee. I am 
Catherine Haney. I am the Director of the Office of Nuclear 
Material Safety and Safeguards at the NRC. I have held this 
position since May 10 of 2010, previously serving as Deputy 
Director in the office. I am responsible for management and 
oversight of three program areas at NRC, the fuel cycle safety 
and safeguards, spent fuel storage and transportation and high 
level waste repository safety.
    I am here today to discuss our activities regarding the 
NRC's regulatory oversight of the proposed Yucca Mountain high-
level nuclear waste repository.
    The Department of Energy submitted a license application in 
June 2008 to seek authorization to construct the geologic 
repository at Yucca Mountain. The NRC accepted the application 
for review in September 2008 and commenced a two-pronged review 
process, first, the technical review of the license application 
by the NRC staff and second, a hearing process before the 
Atomic Safety and Licensing Board. The results of the staff's 
technical evaluation are to be documented in a Safety 
Evaluation Report.
    Before I was appointed by the Commission to the position of 
Office Director in May 2010, the Department of Energy had filed 
a motion to withdraw the Yucca Mountain application before the 
Atomic Safety and Licensing Board. As a result, my predecessor 
had directed the staff to start planning an orderly closure as 
a contingency and for documenting the licensing review while we 
continued our development of the remaining volumes of the 
Safety Evaluation Report. At the end of June 2010, the 
Licensing Board denied DOE's request to withdraw the license 
application. This decision by the Board has been under review 
by the Commission since early July 2010. The staff issued 
Volume 1 of the safety evaluation review in August 2010.
    Over the course of the remainder of fiscal year 2010, my 
staff continued with the licensing review and the preparation 
of an orderly closure plan in case the Commission overturned 
the Board's June 2010 decision or the Congress enacted the 
appropriations requested by the President in the 2011 budget.
    For fiscal year 2011, the President's budget requested $10 
million for the close-out of the high level waste program and 
no funds from the Nuclear Waste Fund for the Department of 
Energy's high-level waste program. On October 1, 2010, while 
operating under a continuing resolution and consistent with 
direction from the Chairman, we began a process of 
transitioning to close-out of the Yucca Mountain program. 
Specifically, we began the process of documenting and 
preserving the staff's review, which included converting the 
remaining volumes of the draft Safety Evaluation Report into a 
Technical Evaluation Report. The objective of the TER is to 
capture the knowledge gained during the last 30 years in 
preparing for and conducting the Yucca Mountain licensing 
review. It is our belief that by thoroughly documenting the 
staff's technical review and preserving it as appropriate for 
publication and public use, the agency will be best positioned 
to respond to future direction from the Commission, Congress or 
the courts.
    I believe this action was consistent with Commission 
policy, the general principles of appropriations law, and 
applicable guidance from the Office of Management and Budget 
and the Government Accountability Office on expenditure of 
funds under continuing resolutions.
    In September 2010, my staff began to draft a memo to the 
Commission that would provide an update on the Yucca Mountain 
Program. The scope and purpose of the memorandum evolved over a 
number of weeks as external and agency internal factors, such 
as budget parameters, individual Commissioner and Commission 
actions, and inquiries from Congress extended the dialogue 
regarding the future of the Yucca Mountain program. On February 
4, I signed this memorandum that provided the information I 
felt needed to be conveyed to the Commission to keep the 
Commission fully and currently informed. That memorandum 
outlined with some specificity the various actions completed, 
underway and planned. These included converting the remaining 
volumes of the Safety Evaluation Report into a Technical 
Evaluation Report; secondly, archiving the institutional, 
regulatory and technical information amassed over nearly 3 
decades of evaluation of Yucca Mountain; redirecting the Center 
for Nuclear Waste Regulatory Analysis to focus its Yucca 
Mountain-related efforts on the preservation of knowledge and 
records management; continuing to support the Office of General 
Counsel on any adjudicatory hearing-related matters; 
videotaping interviews with departing and other senior 
technical staff for knowledge; initiating discussions with the 
General Services Administration and other government agencies 
about preparatory activities to close and decommission the Las 
Vegas Hearing Facility; and lastly, keeping the Licensing Board 
informed of the status of the staff's application review 
activities.
    Our efforts to thoroughly document and capture the 
knowledge from our Yucca Mountain activities continue, with a 
goal of completing these activities by the end of fiscal year 
2011. No resources have been requested for this activity in 
fiscal year 2012.
    As we have been proceeding with the orderly closure of the 
Yucca Mountain regulatory program, we have also been 
implementing our strategy for integrated spent fuel management. 
Given the expected delay in the availability of a repository 
for high-level waste, the Nation will accumulate an increasing 
inventory of spent nuclear fuel. Consistent with NRC's mission 
of ensuring safety and security, the NRC's objective in this 
strategy is to develop the regulatory tools, analyses and data 
needed to evaluate and support the safe and secure management 
of this increasing inventory. We are pursuing this strategy in 
collaboration with a broad array of external stakeholders.
    And this completes my prepared remarks. Thank you.
    [The prepared statement of Ms. Haney follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.019
    
    [GRAPHIC] [TIFF OMITTED] T2593.020
    
    [GRAPHIC] [TIFF OMITTED] T2593.021
    
    [GRAPHIC] [TIFF OMITTED] T2593.022
    
    Mr. Shimkus. Thank you very much. Thank you all for your 
statements and your testimony. Before we go to questions, I ask 
unanimous consent that the contents of the document binder be 
introduced into the record and to authorize staff to make any 
appropriate redactions. Without objections, the documents will 
be entered into the record with any redactions the staff 
determines are appropriate.
    [The information appears at the conclusion of the hearing.]
    Mr. Barton. Mr. Chairman, may I ask just a parliamentary 
question?
    Mr. Shimkus. You are risking it but you can.
    Mr. Barton. We have a document before us that says ``not 
for public disclosure.'' Is that just for the Members' review 
or are we allowed to refer to it in the questioning?
    Mr. Shimkus. That submission is part of what is in the 
document binder, and you can refer to it.
    Mr. Barton. We can refer to it? Thank you, Mr. Chairman.
    Mr. Shimkus. Thank you. Now I would like to recognize 
myself for the first 5-minute round of questioning.
    Let me start with you, Dr. Kotra. Just to be clear, the 
division of high-legal waste repository safety is responsible 
for providing the technical analysis of the Yucca Mountain 
license application. Is that correct?
    Ms. Kotra. That is correct, sir.
    Mr. Shimkus. So this is really where the bread and butter 
work on the license review is done, correct?
    Ms. Kotra. Yes, in coordination with our dedicated 
contractor at the Center for Nuclear Waste Regulatory Analysis 
as Mr. Kokajko explained.
    Mr. Shimkus. And why is it important that the staff perform 
their work objectively and in a non-partisan manner?
    Ms. Kotra. I think it is absolutely vital that the decision 
makers have at their disposal a decision based upon science, 
objective, unbiased assessment of the applications put before 
the Commission for any facility based upon the principles of 
science, physics and evaluated against the Commission's 
regulations. That is how this Agency has operated for over 35 
years.
    Mr. Shimkus. And you have been there----
    Ms. Kotra. Twenty-seven years.
    Mr. Shimkus [continuing]. A big part of that 35 years?
    Ms. Kotra. That is correct.
    Mr. Shimkus. In your testimony, you also spend a 
considerable amount of time in public outreach about the 
Agency's work on Yucca review, is that correct? And what is the 
message about the NRC regulatory process that you have 
attempted to convey to the public?
    Ms. Kotra. Our independence, our transparency, our 
willingness to be open to contentions from parties that, yes, 
we do as thorough and as objective a review as our great body 
of scientists and staff and contractors will allow, but that is 
now sufficient that our rules allow for a full and open and 
non-partisan, impartial hearing process where those parties are 
free to bring forward criticisms not just of what the applicant 
provides but also what the staff finds in its independent 
review. And if those are admitted to the hearing and as you 
well know, the vast majority of over 318 contentions were 
admitted by the hearing board, and we were prepared to go 
forward and adjudicate those in our hearing process. So what I 
told the stakeholders in southern Nevada and in California was 
if there is merit and those contentions are backed by science 
and engineering evidence and witnesses, then the board hears 
those, and on those occasions when the staff is wrong, the 
Board may find against the staff. And that is OK. That is how 
the process is supposed to work.
    Mr. Shimkus. Your message really rests on integrity.
    Ms. Kotra. Absolutely.
    Mr. Shimkus. So when it comes to integrity of the process, 
do you believe that the actions by the NRC leadership over the 
past year have affected the integrity of the NRC?
    Ms. Kotra. I think it has cast a very serious cloud on 
that, and it troubles me deeply.
    Mr. Shimkus. Do you believe the actions by leadership at 
the NRC have undermined what you have tried to convey to the 
public?
    Ms. Kotra. It is stark contrast to what I have tried to 
convey to the public, yes, sir.
    Mr. Shimkus. So let me just turn to Dr. Stablein, Dr. 
Mohseni, Dr. Kokajko. Do you agree with this initial round of 
questioning on NRC on integrity and that there is now a 
question of the entire NRC process based upon leadership? Dr. 
Stablein?
    Mr. Stablein. I definitely do. This is one of the things 
that we are fighting to get back.
    In the 27 years I have been with the Agency, we have been 
very proud of a couple of things: our independence from 
political pressures and our scientific integrity and the 
integrity of our process to protect the public health and 
safety. I think that has slipped, and we are in danger of 
losing that.
    Mr. Shimkus. Mr. Mohseni?
    Mr. Mohseni. I do agree.
    Mr. Shimkus. Mr. Kokajko?
    Mr. Kokajko. Right. Thank you. I can't speculate on other 
parts of the NRC, but I have always felt that if you could be 
turned in one area, you can be turned in another. So I do have 
some concerns.
    Mr. Shimkus. The NRC is still a Federal agency. A lot of 
employees in diverse areas. Is this specific to your area or is 
this feeling being spread throughout the entire NRC?
    Ms. Kotra. Is that a question----
    Mr. Shimkus. It is whoever would like to respond.
    Ms. Kotra. I would just say that my area of expertise and 
experience, at least recently, at least since 1993, is confined 
to the division of high-level waste repository safety.
    Mr. Shimkus. Anyone else like to? My time is expired, and I 
would like to recognize the Ranking Member, Mr. Green, from 
Texas for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Like I said earlier, I 
would like to thank each of you for coming before us today 
because I have a concern about the decision that was made or 
hasn't been made but the actions that have been taken based on 
what is happening at the Yucca Mountain, and that is why this 
Subcommittee is looking at it.
    And I appreciate you as career employees. I know most of 
you have been with the Agency since the late '80s, early '90s, 
so you have actually served under four different Presidents.
    Ms. Haney, I know you became Deputy Director in May of 
2010. How long have you been with the Agency?
    Ms. Haney. A little over 20 years. I started in 1981, 
served 2 years with the Agency, worked as a consultant for 6 
years and then came back in the late '80s, and since 1989 I 
have been employed with the Agency. So I, too, have as long a 
record as my colleagues at the table.
    Mr. Green. OK. I guess my concern is that the American 
people, we expect you to do your job, and you have been there 
for all these years. Has there ever been, that any of you can 
remember, something like what has happened at the Commission 
that there was a decision made based on a continuing 
resolution? I don't have any doubt that it was legal, but 
again, Congress made the decision years ago to decide on Yucca 
Mountain, and we haven't done as good a job as, you know, you 
testified in providing funding. But the decision was made to 
not officially withdraw the application but to do everything 
you could by shutting it down. Do you remember any other chair 
or anything else in your experience since the late '80s?
    Ms. Kotra. I can recall of no precedent for this action, 
sir.
    Mr. Stablein. It is unprecedented in my experience.
    Mr. Mohseni. I do not recall, but it doesn't mean I am 
aware of everything that has happened in the Agency. But for 
something that has become so apparent, so critical, so much 
challenge internally by all of us, including Ms. Haney, we all 
challenged that decision when it first arrived. So it is not 
like there is precedence for it and we would have accepted it 
based on precedence, at least in my memory that it never came 
up that there is a basis for such a redirection under a 
continuing resolution when you have carry-over funds that carry 
you into the next year. And almost every year we have had 
continuing resolutions but none that would have done such a 
dramatic redirection in a major national program.
    Mr. Kokajko. No, sir.
    Mr. Green. Yes, sir?
    Mr. Kokajko. No, sir, I don't recall anything similar in 
the past, and I have worked for very short times in the 
Executive Director's Office as well as Commission offices.
    Mr. Green. Ms. Haney, in your----
    Ms. Haney. I am not aware of any, either.
    Mr. Green. Ms. Haney, let me ask you about your memo of 
February the 4th. This memo outlines the status of NRC staff 
work on the closure of Yucca Mountain licensing review and 
appears several times in the witness testimony. When you first 
decided to write the memo to the Commission in last year, what 
was its purpose?
    Ms. Haney. When I first worked with staff to develop the 
memo, it was probably in the early September timeframe, and at 
that point, we did not have any guidance from either the 
Executive Director of Operations or from the Commission level 
with regards to the future of the program. I was aware of 
statements in the budget statements in the document for the 
fiscal year 2012 budget. So consistent with what past practice, 
I thought it was prudent to prepare a status memo to the 
Commission telling them that we--just reinforcing our March 
memo to them that we could plan to use carry-over funds from 
fiscal year 2010 into 2011 to complete the Safety Evaluation 
Report. And by doing that I would take it to the Commission, 
give them the opportunity to know what our plans were. If they 
had a differing view, they could, through internal procedures, 
let staff know of that.
    Mr. Green. I only have 5 minutes, but last fall with the 
developments regarding the direction of high-level waste, the 
Chairman told the staff to begin closure of Yucca Mountain 
licensing review and stop work on the safety evaluations. 
Commissioner Ostendorff asked the Commission to overturn it, 
but it failed. Did these events change the purpose and scope of 
your memo?
    Ms. Haney. Yes.
    Mr. Green. Mr. Mohseni, the suggestion in your testimony 
that you quote senior managers directed the staff to suppress 
information to the Commission by providing a status report 
instead of a policy report on the closure of Yucca Mountain. 
Ms. Haney, how did you respond to that? Did anyone direct you 
to suppress information to the Commission?
    Ms. Haney. No.
    Mr. Green. Dr. Kotra, you expressed in your testimony the 
final version of the memo implied that the NRC staff was who 
decided to terminate the NRC's review of the license 
application. Is that one of the reasons you cite for submitting 
the formal non-concurrence with the memo?
    Ms. Kotra. That is the primary reason that I submitted a 
non-concurrence, sir.
    Mr. Green. OK. I assumed it was common knowledge the 
Chairman made the decision to close down the program?
    Ms. Kotra. Not initially.
    Mr. Green. Dr. Kotra, does anyone at NRC or the Commission 
really believe that this was the technical staff's decision?
    Ms. Kotra. Certainly not now.
    Mr. Green. Mr. Chairman, I know I am over my time but one, 
I appreciate you being here. I am frustrated because we spent 
$15 billion in a decision made by Congress in the 1980s, for 
good or bad, and we are just throwing that out and starting 
over again.
    So, Mr. Chairman, thank you for the time.
    Mr. Shimkus. I thank my colleague. I would like to turn now 
to the chairman emeritus, Mr. Barton, for 5 minutes.
    Mr. Barton. I am going to try to do it in 5 minutes. It is 
going to be difficult. I first just have some general 
housekeeping questions. I assume that you all are all SES 
employees?
    Ms. Kotra. No, sir.
    Mr. Stablein. I am not.
    Mr. Mohseni. I am.
    Mr. Barton. Let us start over again. What are you? Each of 
you explain your status, the type of employee you are at the 
NRC.
    Ms. Kotra. I am a senior-level project manager, technical 
staff. I am not an SES employee.
    Mr. Barton. Is anybody here a political appointee?
    Ms. Haney. No.
    Mr. Stablein. No.
    Mr. Mohseni. No.
    Mr. Kokajko. No.
    Ms. Kotra. No.
    Mr. Barton. So you are all hired based on merit and you can 
be fired based on merit according to whatever the protocol is 
on review, is that correct?
    Ms. Kotra. That is correct.
    Mr. Barton. Who is the highest ranking person here?
    Ms. Haney. I am.
    Mr. Barton. And you are a----
    Ms. Haney. I am a Senior Executive Service Office Director.
    Mr. Barton. You are an Office Director?
    Ms. Haney. Correct.
    Mr. Barton. Who is the next highest?
    Mr. Kokajko. That would be me.
    Mr. Barton. And what are you, sir?
    Mr. Kokajko. I am a Senior Executive Service Member. I am 
currently the Acting Director for the Office, Acting Deputy 
Director for the Office.
    Mr. Barton. So you report to Ms. Haney?
    Mr. Kokajko. Yes, I do.
    Mr. Barton. Who is next?
    Mr. Mohseni. I am next. I am an SES member as well, and I 
am the Acting Division Director, permanently as a Deputy 
Division Director.
    Mr. Barton. Are you equivalent to Dr. Kokajko?
    Mr. Mohseni. Dr. Kokajko would be my Division Director 
regularly, but he has moved to an Acting Deputy Director due to 
the Japanese event. And I have backfield behind him as the 
Acting Division Director. I report to him generally in the 
division.
    Mr. Barton. You report to him and he reports to her?
    Mr. Mohseni. He reports to Cathy.
    Mr. Barton. What about you, sir?
    Mr. Stablein. I am a grade 15 Branch Chief. That is non-
SES, and I report directly to Mr. Mohseni.
    Mr. Barton. So it is just kind of going right up. And then 
you are the low lady on the totem pole?
    Ms. Kotra. I most certainly am. I am a grade 15 Senior 
Staff. I report to Dr. Stablein, and I have no one reporting to 
me.
    Mr. Barton. Ms. Haney, who do you report to?
    Ms. Haney. I report to the Deputy Director of Operations, 
Michael Weber.
    Mr. Barton. And who does he report to?
    Ms. Haney. To the Executive Director of Operations which is 
Bill Borchardt.
    Mr. Barton. And who does he report to?
    Ms. Haney. At that point, you move onto the Commission 
level and he reports to them.
    Mr. Barton. So you are two levels below the Commission?
    Ms. Haney. Yes.
    Mr. Barton. So you would normally, even at your level, you 
have no day-to-day interaction with the Commission staff?
    Ms. Haney. On a day-to-day----
    Mr. Barton. With a Commissioner?
    Ms. Haney. With a Commissioner? Typically on a frequency of 
once to every other month I meet on a one-on-one basis with a 
Commissioner or with the Chairman.
    Mr. Barton. Does everybody here consider yourself to be 
outside politics? I mean, you are professionals. Whatever the 
job is, you do it, and you let the presidentially appointed 
Commissioners and their political appointees handle the 
politics. Is that a fair statement?
    Ms. Haney. Yes?
    Mr. Barton. Everybody agrees?
    Ms. Kotra. Yes.
    Mr. Barton. Mr. Mohseni, we have a document that is listed 
not for public disclosure that was sent from you to Ms. Haney. 
It is apparently now going to be in the public record. Is that 
with or without your permission?
    Mr. Mohseni. I did not release it myself.
    Mr. Barton. So it is without your permission?
    Mr. Mohseni. Yes.
    Mr. Barton. And it is sent to you, Ms. Haney, so I assume 
it has been released without your permission?
    Ms. Haney. Correct.
    Mr. Barton. OK. Mr. Mohseni, this is a pretty, to me, an 
unusual document.
    Mr. Shimkus. If the gentleman will yield for a second? It 
is Tab 6 in the document binder that we submitted into the 
record.
    Mr. Barton. You disagree with the decision not to approve 
the Technical Evaluation Report as written for publication. I 
also disagree with the need to revise the TER which is 
Technical Evaluation Report. Did you feel when you wrote this 
that this might have some negative consequences on you?
    Mr. Mohseni. Me?
    Mr. Barton. Yes, sir.
    Mr. Mohseni. Yes, I did.
    Mr. Barton. OK. And when you received it, Ms. Haney, did 
you feel like that you needed to respond fairly emphatically or 
that you would be put under some pressure from higher-ups?
    Ms. Haney. No.
    Mr. Barton. You felt no pressure?
    Ms. Haney. The pressure is coming from I have a desire to 
have the Technical Evaluation Report released to the public. So 
the pressure comes from an internal desire to make that 
document publically available, and as written, I was not 
comfortable with it being released to the public. So the 
pressure comes with regards to the document, not with regards 
to any of the content of the memo.
    Mr. Barton. My 5 minutes is already expired. Let me ask one 
final question. Do you all feel like the Chairman at NRC is 
acting appropriately within the statute with what he has done 
to try to shut Yucca Mountain down? That is a straight 
question.
    Mr. Mohseni. I do not agree with his decision of bypassing 
the rest of the Commission and making this decision as a policy 
decision where the entire Commission would have actually vetted 
this decision, this important decision. The reasons I have that 
the law has not changed----
    Mr. Barton. We don't have time for your reasons.
    Mr. Mohseni. OK. Well, I disagree with the Chairman's 
decision to move----
    Mr. Barton. Ms. Haney, do you----
    Ms. Haney. I believe he is within his legal authority to 
make the decisions he has made.
    Mr. Barton. Without the other Commissioners' approval? You 
think the Chairman himself has that authority?
    Ms. Haney. Based on the knowledge and the reasons that he 
has provided for making that decision, yes.
    Mr. Barton. What about you, Mr. Kokajko?
    Mr. Kokajko. No, sir. I disagree with the Chairman on this. 
I would have preferred that the NRC implement its internal 
processes which are available to make this decision. I think it 
is of profound national significance, and it should have been 
done much more openly and----
    Mr. Barton. Dr. Stablein, what is your position?
    Mr. Stablein. I also believe that the entire Commission 
should have had the opportunity to weigh in on such a major 
decision, and in fact, the IG report indicates had they weighed 
in, the decision would have come out differently.
    Mr. Barton. OK, and Dr. Kotra?
    Ms. Kotra. Earlier in my career, I served on the staff of 
two Commissioners and did a rotation for a third, and in all my 
experience working for political appointees in the NRC, I have 
never seen a policy decision of this magnitude handled in this 
manner. I disagree with this decision treated unilaterally by a 
Chairman. It should have been a Commission decision.
    Mr. Barton. Thank you, Mr. Chairman, and thank you for the 
courtesy of letting me go over 2 minutes.
    Mr. Shimkus. The Chair now recognizes the chairman 
emeritus, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. I would like 
to discuss some of the allegations raised in the witness 
testimony against Chairman Jaczko and senior managers at the 
NRC.
    Mr. Mohseni alleges in his statement that, ``senior 
managers contributed to the manipulation of the budget process 
to apparently make sure that the Yucca Mountain project would 
be left unfunded.'' Mr. Stablein called Chairman Jaczko's 
decision to terminate the licensing review process, ``the 
arbitrary decision of one individual.'' These statements appear 
to leave out important players in this ongoing saga.
    In February of last year, the Obama administration 
announced that it planned to shut down the Yucca Mountain 
project. Not long after that, Secretary of Energy asked to 
withdraw the Yucca Mountain license application from NRC 
review. Ms. Haney, is that correct?
    Ms. Haney. Yes.
    Mr. Waxman. In 2010, the NRC approved its budget 
justification for fiscal year 2011 stating that it would use 
its funding to begin an orderly closure of the Yucca Mountain 
licensing activities. For fiscal year 2012, NRC requested $4 
million to terminate the licensing review. The Commission 
approved that budget request as well. Ms. Haney, is that your 
understanding?
    Ms. Haney. Yes.
    Mr. Waxman. In addition, after the Chairman told the staff 
to close out the Yucca Mountain licensing review last fall, 
Commissioner Ostendorff called a vote to direct staff to 
proceed with the license review and finish the Safety 
Evaluation Reports. That vote failed when a majority of 
Commissioners opted not to participate. Ms. Haney, is that your 
understanding?
    Ms. Haney. Yes.
    Mr. Waxman. And Congress has weighed in as well. In April, 
Congress passed a continuing resolution that zeroed out funding 
for Yucca Mountain at DOE and allocated $10 million to NRC to 
close out the license review. I would note that both Chairman 
Shimkus and Chairman Upton voted for the CR and did not offer 
or even file an amendment to restore funding for Yucca 
Mountain. Despite the record, Mr. Mohseni alleges in his 
testimony that there is a conspiracy among senior management at 
NRC to do the political bidding of Chairman Jaczko. So I will 
ask the question. Ms. Haney, has the Chairman or his staff ever 
directed you or asked you to direct staff to change or suppress 
technical findings on Yucca Mountain?
    Ms. Haney. The Chairman has never asked that.
    Mr. Waxman. Thank you. I can understand why many of you are 
frustrated and upset by the end of this program after 4 years 
of hard work. While some may disagree with Chairman Jaczko's 
decision to close down Yucca Mountain licensing review, it was 
hardly an arbitrary decision. The Commission and Congress voted 
on several occasions to move forwards with the closure, it 
wasn't the Chairman alone. It was the Secretary of Energy and 
the President of the United States and the Congress of the 
United States that decided to end the Yucca Mountain project, 
and that is where we stand at the moment.
    Mr. Shimkus. Will the gentleman yield just for one second, 
just to follow up on a question?
    Mr. Waxman. Yes.
    Mr. Shimkus. The question you asked Ms. Haney, and she is 
under oath, the question that you asked, did the Chairman or 
staff. Her response was, the Chairman did not. Can she answer 
the question whether staff had ever given her direction? I 
mean, that is what your question was, to Chairman and staff. 
Ms. Haney, your response was, and you are under oath, your 
response was the Chairman has not.
    Ms. Haney. Nor has the staff.
    Mr. Shimkus. OK. Thank you.
    Ms. Haney. But if given the opportunity with regards to--I 
am interpreting suppress to be to change technical findings, we 
did receive direction from the Chairman with regards to when we 
would issue technical documents as noted in Dr. Stablein's 
testimony. But am I answering that the Chairman or the staff 
did not give me. That is my interpretation of suppression, that 
he did not suppress technical information.
    Mr. Waxman. But he did ask you or his staff asked you to do 
what?
    Ms. Haney. With regards to the timing of the Safety 
Evaluation Report being issued at the times we had told the 
Board that we would issue them, and my reference is back to Dr. 
Stablein's testimony.
    Mr. Waxman. And is that something unusual for the Chairman 
to talk about the timing and direct the timing of release of 
certain--
    Ms. Haney. It is unusual, but again, I believe it is 
consistent with the authorities that he has as Chairman.
    Mr. Waxman. Thank you very much. I yield back my time, Mr. 
Chairman.
    Mr. Shimkus. Thank you, Mr. Waxman, for letting me 
intervene. The Chair now recognizes the vice chair, Mr. Murphy, 
for 5 minutes.
    Mr. Murphy. Mr. Mohseni, I read the Inspector General's 
report, and it seems that some NRC executives anticipated that 
during the continuing resolution in the fall of 2010 your 
department would continue its work on Yucca and the Safety 
Evaluation Report. Allow me to read it for you. ``The Deputy 
Executive Director wanted to convey in the CR budget guidance 
memorandum that the staff would use FY 2010 carryover funds in 
fiscal year 2011 to move ahead with license application review 
activities until they had a final decision from the Commission. 
This was a language the Deputy Executive Director originally 
inserted into early draft versions of the CR budget guidance 
memorandum.'' Meaning there was money left over. I repeat, 
there was money left over to continue with the Safety 
Evaluation Report and review of the Department of Energy 
application while the Commissioners deliberated on whether to 
uphold or vacate the Atomic Safety and Licensing Board 
decision. This language was ultimately removed. Is that 
correct?
    Mr. Mohseni. That is correct.
    Mr. Murphy. Is it your opinion that Chairman Jaczko 
directed the removal of this language?
    Mr. Mohseni. I don't know personally for sure, but 
circumstantial evidence suggests that.
    Mr. Murphy. Is it your opinion that by removing that 
language, the Chairman was undermining the Agency's independent 
work at Yucca?
    Mr. Mohseni. There is a connection there to be made.
    Mr. Murphy. Mr. Mohseni, the Director, Catherine Haney 
here, has testified that on October 1, 2010, while the NRC, 
like all government agencies, was operating under a continuing 
resolution, the Department began to convert the remaining 
volumes of the Safety Evaluation Report into a technical 
advisory document devoid of scientific findings. Is there a 
difference between a safety evaluation report and technical 
evaluation report in terms of what they mean for policymakers? 
Is there a difference in content?
    Mr. Mohseni. There is.
    Mr. Murphy. All right. Is it true that a technical 
evaluation report would lack scientific findings and 
conclusions reached by the Department in your work?
    Mr. Mohseni. The Safety Evaluation Report would have 
regulatory compliance findings. It would also have a technical 
assessment. The technical evaluation report would just have the 
technical assessment without the regulatory compliance.
    Mr. Murphy. So if you were directed to do one and not the 
other, there would be a distinct difference in content between 
the two documents, am I correct?
    Mr. Mohseni. Yes.
    Mr. Murphy. And it is possible that the safety evaluation 
report could contain information that would validate Yucca and 
dispel safety concerns, am I correct?
    Mr. Mohseni. Correct.
    Mr. Murphy. So if you were told not to do a safety 
evaluation report but to do a technical evaluation report, 
there would be direct suppression of data, am I correct?
    Mr. Mohseni. Yes, from a licensing standpoint, the ultimate 
decision for the Nation was whether or not it meets the 
regulation. So that piece of information would not be 
available.
    Mr. Murphy. So is it your opinion that the Chairman of the 
NRC specifically directed the staff in your department to delay 
publication of a Safety Evaluation Report until after he 
published a budget memorandum that would end your department's 
work? Am I correct in that?
    Mr. Mohseni. Let me just rephrase that, if you don't mind.
    Mr. Murphy. Real quick. I have a whole bunch of questions.
    Mr. Mohseni. Yes, the Safety Evaluation Report is tied to 
our litigation process, and the timing of release of that would 
have been consistent with what we had announced to the board. 
And the intervention by the Chairman put us off course.
    Mr. Murphy. Mr. Mohseni, you recently appealed to the full 
Commission to intervene in connection with your concerns about 
manipulation and suppression of staff information. This is what 
we have in Tab 7 there, what appears to be a copy of that 
petition. That is what you filed?
    Mr. Mohseni. Yes, sir.
    Mr. Murphy. What led you to do this, real quick?
    Mr. Mohseni. The Technical Evaluation Report was complete 
March 31 as we had announced, and I was the final signatory on 
it. And we provided it to the front office, and 2 months later 
we got the direction that I think you heard the witnesses here 
that we were not authorized to release it unless it was 
revised.
    Mr. Murphy. You wrote in this document, ``In this division 
alone I have witnessed the suppression and manipulation of 
programmatic and budgetary information to meet a politicized 
agenda.'' Is it your belief that this direction came from Mr. 
Jaczko?
    Mr. Mohseni. Although I don't have direct evidence, but it 
seems like it is the same agenda.
    Mr. Murphy. All right. In your testimony you referenced the 
political pressures, manipulation of our scientific and 
licensing process that would come with the appointment of 
Chairman Jaczko. Do you believe the source of problems of the 
Agency today stemmed from Chairman Jaczko's behavior and 
actions?
    Mr. Mohseni. The source might be there, but he couldn't do 
it alone if there were not enablers.
    Mr. Murphy. I am a psychologist. I am familiar with 
enabling. I would like to read to you a couple statement from 
his speech and see if you are in agreement with this. This is 
regarding the mission statement of NRC. The NRC must foster 
initiatives that seek to further the culture within our own 
staff by encouraging programs such as differing professional 
opinions. Would you agree with that?
    Mr. Mohseni. Yes, sir.
    Mr. Murphy. Do you think that culture exists in this 
situation?
    Mr. Mohseni. I have tested it, and so far I am still 
sitting here before you, so----
    Mr. Murphy. All right. But the culture of being allowed to 
have these professional opinions coming to an official NRC 
report seems to be tainted. How about this one?
    Mr. Mohseni. Yes.
    Mr. Murphy. How about this one, too, the process of the 
Commission uses to make policy decisions should always be open, 
accessible and well-understood by all. But the law as Congress 
has passed, the President signed into law, it says the Chairman 
and the Executive Director of Operations to the Chairman, shall 
be responsible for ensuring the Commission is fully and 
currently informed about matters within its functions. Yet, it 
appears by directing the report to be done in one way and not 
the other, it seemed to be in violation of that law. Would you 
agree?
    Mr. Mohseni. Yes, I agree.
    Mr. Murphy. One more statement, Mr. Chairman. Would it 
surprise you those quotes I read you were made by Mr. Jaczko 
himself in 2005?
    Mr. Mohseni. Yes.
    Mr. Murphy. I would like to submit this for the record, Mr. 
Chairman.
    Mr. Shimkus. Is there objection? Hearing none, so ordered.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.023
    
    [GRAPHIC] [TIFF OMITTED] T2593.024
    
    [GRAPHIC] [TIFF OMITTED] T2593.025
    
    [GRAPHIC] [TIFF OMITTED] T2593.026
    
    [GRAPHIC] [TIFF OMITTED] T2593.027
    
    [GRAPHIC] [TIFF OMITTED] T2593.028
    
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Pennsylvania, Mr. Pitts, for 5 minutes.
    Mr. Pitts. Thank you, Mr. Chairman. Mr. Mohseni, to 
continue, you state your belief that ``At the direction of the 
Chairman and with the aid of some senior managers, the 
disclosure to the rest of the Commission of the staff's views 
on the impacts of budget cuts and allocations was suppressed.'' 
What were these views briefly?
    Mr. Mohseni. We had prepared responses to inquiries by 
individual Commissioners and by inquiries from Members of 
Congress. And we the staff were the first people to actually 
try to address those questions. As they were sent up through 
the chain, it had to be cleared at the Chairman's office, and 
then the answers that went out were quite different than the 
ones we had forwarded.
    Mr. Pitts. Mr. Mohseni, why would the Chairman and certain 
senior managers seek to silence the staff's views on the 
impacts of budget cuts and allocations?
    Mr. Mohseni. In retrospect, after the IG report, I can 
actually say that it is very clear that, in fact, to keep the 
others in the dark so that the decision would not be hampered 
to shut down the program.
    Mr. Pitts. Isn't it true that keeping the full Commission 
fully and currently informed is a statutory requirement?
    Mr. Mohseni. It is indeed.
    Mr. Pitts. Why is it important that the full Commission 
have an opportunity to hear the views of its dedicated and most 
experienced professional staff?
    Mr. Mohseni. Because the Commission's policy-making body 
heavily relies on the best information available to them to 
make policy. Once the staff deprives the full Commission of 
getting the full benefit of the thinking of the staff in terms 
of the options that the Commission has and the recommendation 
from the staff, it undermines the functionality of the 
Commission, and you will at best come up with an inadequate 
policy because you did not support with full information the 
integrity of the process by providing them with the best advice 
possible.
    Mr. Pitts. Dr. Kotra and Dr. Stablein, Mr. Mohseni, if you 
will each respond, to what extent does NRC senior leadership 
contribute to problems of keeping information fully and 
currently from the Commission? And if you can provide a 
specific example of this happening to you with regard to 
providing information to the Commission about Yucca Mountain?
    Ms. Kotra. Well, to the extent that I am given assignments 
to draft information that is going to go forward to the 
Commission, I have to satisfy the concurrence chain that goes 
up through my management. And ordinarily, there is a chain that 
starts at the bottom and goes to the top. The regular procedure 
that I had to follow in the memo that we have discussed here 
today was coming directly from the Deputy Director of 
Operations reaching down to my level and making changes in the 
draft that would be seen by multiple layers above me is now how 
it is supposed to work. Basically, the draft that was supposed 
to go through the concurrence chain in an orderly progression 
was not allowed to happen. There were over 100 different 
electronic drafts that were entered into our electronic 
recordkeeping system before this memo went forward to the 
Commission, and much of that was to incorporate changes that 
were provided, I am told, you know, through this iterative 
process, and I don't know this directly, but it was through 
meetings that my office director had with the Deputy Director 
for Operations, and I could only surmise that this direction 
was coming from the Chairman's office.
    Mr. Pitts. The chair emeritus wants to----
    Mr. Barton. The Deputy Director of Operations reports to 
the Director of Operations who I assume reports to the 
Chairman?
    Ms. Kotra. That is correct.
    Mr. Barton. Or to the Commission?
    Ms. Kotra. That is correct.
    Mr. Barton. At those two levels, are those political 
appointees or are they civil service?
    Ms. Kotra. They are career civil servants, but they report 
directly to the Chairman.
    Mr. Barton. OK. Thank you.
    Mr. Pitts. Dr. Stablein, would you respond?
    Mr. Stablein. The best example that I have is also this 
memo that Dr. Kotra worked on because as her supervisor, I 
agonized with her over these changes we were forced to make.
    Mr. Pitts. Thank you. Mr. Mohseni, would you respond?
    Mr. Mohseni. Same.
    Mr. Pitts. All right. Ms. Haney, you supervise the other 
panelists appearing here today, right?
    Ms. Haney. Yes.
    Mr. Pitts. How do you respond to the concerns expressed by 
these senior NRC staff that the Commission is not getting full 
information?
    Ms. Haney. To the best of my knowledge, I believe the 
Commission was getting the information. Now after the IG report 
is out, there are things that would call that into question. 
But at the time we were working on that memo and I was the one 
that was directing the content of the memo with input from the 
Deputy Director of Operations, I felt the Commission was aware 
based on my periodic meetings with the Commissioners.
    Mr. Pitts. Well, knowing what you know as Director and 
knowing what the Commission does not know, do you think all 
policy and budget matters concerning the Yucca license activity 
have adequately been communicated to the Commission?
    Ms. Haney. I do believe that.
    Mr. Pitts. What is the reaction of the other three of you?
    Ms. Kotra. I find that hard to believe.
    Mr. Mohseni. I specifically asked that question yesterday 
of at least one Commissioner, and I previously asked the 
others. The answer was no, we have not.
    Mr. Pitts. Dr. Stablein?
    Mr. Stablein. Yes, I agree with what Mr. Mohseni said.
    Mr. Pitts. My time is up.
    Mr. Shimkus. The gentleman's time is expired. The Chair now 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you, Chairman. I appreciate the time 
and I appreciate the panelists here today, and every one of 
these hearings I set through, I can't say that I am not even 
more amazed of what is going on out there.
    As the chairman has stated about a dysfunctional Commission 
and hearing what the Inspector General is saying and saying 
that the Chairman is not forthcoming in the information to his 
fellow Commissioners is just beyond belief.
    But if I could, Mr. Mohseni, if I could ask you this, what 
is the technical evaluation report for post-closure safety?
    Mr. Mohseni. It is the staff's collection of learning that 
has contributed to our original Safety Evaluation Report minus 
the regulatory compliance findings. So it has, I don't know, 
400 or 500 pages of serious technical assessment of the 
performance of the mountain once it is closed. It is the post-
closure, 1-million-year assessment of its performance as 
proposed by the Department of Energy.
    Mr. Latta. OK. And according to the February 4 memo to the 
Commission, was the document to be released on March the 31st? 
Was the document to be released by March 31?
    Mr. Mohseni. It had to be completed by March 31 and 
probably within days to be released, yes.
    Mr. Latta. OK, and was the TER manage group completed by 
March 31?
    Mr. Mohseni. The staff completed it, yes.
    Mr. Latta. OK. And also, in one of your memos that you had 
sent on June the 3rd, you stated that this was not a draft, it 
was final and it was completed on or around the 31st. Do you 
still stand by that, that it was----
    Mr. Mohseni. Yes, sir. Yes, sir.
    Mr. Latta. And also, are you the signing official on that 
document, then?
    Mr. Mohseni. Yes, as Acting Division Director, I signed. I 
am the final signatory on that document.
    Mr. Latta. Let me ask you this. Director Haney had 
mentioned that she believed that the Commission was getting the 
information, but in looking at some of these documents that we 
have received, one dated on June the 20th that you had sent to 
all the Commissioners, a request for Commission intervention, 
why did you send that?
    Mr. Mohseni. This was the final straw for me. I had 
observed the testimony of the individual Commissioners in 
response to the IG report, and then this event about the TER 
occurred. And I could not give the benefit of the doubt anymore 
to the senior management above me to actually perform what we 
were supposed to be performing. And I thought this still 
smelled like even after the IG report is out, we still have not 
learned the lesson of actually maintaining a level of integrity 
in the process.
    Mr. Latta. OK.
    Mr. Mohseni. I thought the process is----
    Mr. Latta. I am not sure about the date on this one. I have 
two memos here. You have one addressed to the Commission, to 
each Commissioner by name. But in the second paragraph it 
says--is this the enclosure then? Within it it says on June the 
6th I was informed that additional redactions be needed to 
release the TER. I respectfully disagreed with the decision not 
to release the TER as written and approved for the publication 
and public distribution. I also disagreed with the need to 
revise the TER. Attached is my email fully explaining my basis 
for challenging this policy decision.
    Did you get any response back from anybody on the 
Commission?
    Mr. Mohseni. Not from the Commission, but I think Ms. Haney 
can address that. We have had--the EDO responds at least, you 
know, on short notice on a list of actions that the EDO is 
taking on that memo. We are still awaiting Commission decision 
on it.
    Mr. Latta. OK. Let me go on with the February the 4th memo 
with the TER. According to that memo, the TER was going to 
contain no staff findings of a regulatory compliance, is that 
correct?
    Mr. Mohseni. That is correct.
    Mr. Latta. OK. Are there staff findings about the 
regulatory compliance in that document?
    Mr. Mohseni. No.
    Mr. Latta. And did the Office of the General Counsel object 
to the TER or express any concerns about the document as it was 
written?
    Mr. Mohseni. No, they did not.
    Mr. Latta. But even without regulatory findings, this is an 
important scientific document reflecting the judgment and 
analysis of the NRC technical and scientific staff. Is that 
correct?
    Mr. Mohseni. That is correct.
    Mr. Latta. And I would also assume that any efforts to edit 
the scientific analysis would be frowned upon by the diligent 
staff. Would I be wrong in that assumption?
    Mr. Mohseni. No.
    Mr. Latta. Dr. Haney, if I could just ask you, the February 
the 4th report does not contain any regulatory findings. Why 
did you not allow the division staff to release the TER?
    Ms. Haney. Because when I looked at the Technical 
Evaluation Report and compared it to the Safety Evaluation 
Report, I felt that there were similarities between the two 
documents and that it actually did contain the findings. So I 
asked for some minor changes, and I would emphasize they were 
minor changes to further separate the documents.
    Mr. Latta. OK. Isn't it true that the TER specifically 
states that it does not include conclusions as to whether or 
not the DOE satisfies the Commission's regulations in the TER?
    Ms. Haney. That was the intent of the document, but I felt 
there were statements in there that were too similar to the 
Safety Evaluation Report, and you could make a conclusion based 
on staff's technical findings.
    Mr. Latta. OK. Are there specific conclusions about whether 
the DOE license application for Yucca Mountain complies with 
the NRC safety regulations in the document?
    Ms. Haney. There is not a direct tie in the Technical 
Evaluation Report to the regulations. However, there is a tie 
to the Yucca Mountain Review Plan that is a Commission-approved 
document.
    Mr. Latta. Let me ask this. I just want to make sure I 
heard it correctly. When you were sending information up the 
chain, as you might say, did you believe this Commission was 
getting all the information, all the Commission members?
    Ms. Haney. At the time, prior to the IG's report coming 
out, my answer would have been yes. But based on the IG report 
now, I would have to change that opinion.
    Mr. Latta. So you would change it to--what would your 
opinion be then?
    Ms. Haney. It appears that they were not getting some of 
the information that I thought that they had been getting.
    Mr. Latta. Thank you very much, Mr. Chairman. I yield back.
    Mr. Shimkus. The gentleman yields back. The Chair 
recognizes the gentleman from Colorado for 5 minutes.
    Mr. Gardner. I thank you, Mr. Chairman, for the hearing 
today and thank you to the witnesses as well for your time in 
discussion today.
    Dr. Stablein, what is the significance of SER Volume 3 in 
your opinion?
    Mr. Stablein. The significance of the Safety Evaluation 
Report, Volume 3, is it provides the staff's regulatory 
findings versus the part 63 requirements for performance of the 
repository in the million years after it is closed up.
    Mr. Gardner. And what is the status of the document when 
Chairman Jaczko directed you to terminate review?
    Mr. Stablein. It was very near being ready to be issued.
    Mr. Gardner. Very near? Would it have taken much effort to 
finish it?
    Mr. Stablein. No. In terms of resources, really very little 
resource to finish.
    Mr. Gardner. So finish relatively easy then?
    Mr. Stablein. Yes.
    Mr. Gardner. OK. Mr. Mohseni, according to your email 
exchange with Ms. Haney, which I believe is in Tab 6, page 2, 
Item 8 of what you have in front of you, you say the SER Volume 
3 is complete in content with the Office of General Counsel's 
no legal objection and no open issues. Is that correct?
    Mr. Mohseni. Yes.
    Mr. Gardner. When was the SER 3 completed with the Office 
of General Counsel offering no legal objection to the full 
content?
    Mr. Mohseni. Perhaps the latter part of the year 2010.
    Mr. Gardner. So it was completed with the Office of General 
Counsel you believe the latter part of the year 2010?
    Mr. Mohseni. Yes, latter part of 2010, and we developed a 
reversible package, not the SER. To get to a TER, we had to 
start from the SER, and the work that went into it, my 
colleagues later called it a hybrid thing, to go from one 
document to another. So the terminology, we were not working on 
an SER anymore, we were working on a TER. But by going through 
the initial phase, I think we completed the OGC concurrence in 
that phase.
    Mr. Gardner. OK. And so the document is essentially, save 
for formatting and copy edits, is that correct?
    Mr. Mohseni. Yes, and of course, the Office Director 
comments prior to publication, obviously. The signature has to 
come from the Office Director.
    Mr. Gardner. Until your email, was the Commission made 
fully and currently aware that the staff had substantially 
completed SER Volume 3?
    Mr. Mohseni. Yes.
    Mr. Gardner. Yes? OK. And so as far as technical staff is 
concerned, the SER will not fundamentally change and could be 
released to the public as of the timeframe you mentioned, 
correct, to this year?
    Mr. Mohseni. Yes.
    Mr. Gardner. So that is correct. Then what is the basis for 
saying then that its release is pre-decisional?
    Mr. Mohseni. It is pre-decisional because of the hearing 
process, pre-decisional because if--first of all, the Office 
Director has not signed off on it, so therefore, the document 
is incomplete if you will because that final signature is not 
on it.
    Mr. Gardner. So is----
    Mr. Mohseni. But it is pre-decisional because of the legal 
aspects of it, prior to--you know, when we are ready to issue 
it to the Board, it becomes public.
    Mr. Gardner. So who makes that determination then?
    Mr. Mohseni. That final determination is by our office 
director.
    Mr. Gardner. OK. All right.
    Mr. Mohseni. The staff has done its work, but the Office 
Director's signature is necessary. Obviously it is a licensing 
document, and the NMSS Office Director is in charge of making 
that final call.
    Mr. Gardner. And so, Ms. Haney, then on what basis are you 
making this decision that the SER is a draft? We just heard it 
is complete.
    Ms. Haney. I have not completed my review. A copy with the 
OGC changes in it has not been presented to me, and I have the 
direction from the Chairman that the document is not to be 
issued until our original schedule, which was November.
    Mr. Gardner. So is the Chairman making the decision or are 
you making the decision?
    Ms. Haney. There are a couple things going on. One is the 
Chairman's June memo that said the Safety Evaluation Report 
should be issued on the schedule that we had provided to the 
Board which was that Volume 3 would have been presented for 
publication in November of 2010.
    Mr. Gardner. How many of the Commissioners know there is a 
reversible SER on the shelf right now then?
    Ms. Haney. I think the use of the term reversible SER is 
rather confusing. On October 1 we began to work on a Technical 
Evaluation Report. So the Safety Evaluation Report stopped on 
September 30 of last year. All the Commissioners I believe are 
aware that staff is working on a Technical Evaluation Report 
that was being developed using the Safety Evaluation Report as 
a basis document.
    Mr. Gardner. But in terms of the SER, do you believe you 
have an obligation to keep the Commission fully and currently 
informed?
    Ms. Haney. Yes.
    Mr. Gardner. And have you done that?
    Ms. Haney. I believe I have.
    Mr. Gardner. But the Counsel report said that they didn't 
know certain things.
    Ms. Haney. I know I had numerous conversations, one-on-one 
conversations with all the Commissioners as well as the 
Chairman with regards to the status of the Safety Evaluation 
Report and the Technical Evaluation Report. I am aware of what 
the IG report says also.
    Mr. Gardner. And so--I mean, does the Commission provide 
any guidance to staff on how to handle near-complete SERs?
    Ms. Haney. No.
    Mr. Gardner. Prior to the IG's report you say you thought 
information was getting through. Now it appears that it wasn't. 
What information wasn't getting through?
    Ms. Haney. It appears some of the budgeting information.
    Mr. Gardner. It appears though it didn't get through?
    Ms. Haney. Correct.
    Mr. Gardner. And is that something that you should have had 
a conversation with them about?
    Ms. Haney. Certain elements of the budget I would have 
conversations with them, but that is not a primary 
responsibility of my job.
    Mr. Shimkus. The gentleman----
    Ms. Haney. That would be more of Chief Financial Officer.
    Mr. Shimkus. The gentleman's time is expired. The Chair 
recognizes the gentleman from Oklahoma, but before he assumes 
his time, I just want to clear something up that Mr. Latta has 
mentioned.
    Ms. Haney, you testified that before the IG report, you 
felt that all the information to the Commissioners were fully 
informed, and it is my understanding based upon your written 
and oral testimony from the other four, before the IG report 
was submitted, you already questioned whether full information 
was being provided to the Commissioners. Is that correct? And I 
see the four nodding.
    Mr. Stablein. Yes.
    Mr. Kokajko. Yes.
    Ms. Kotra. Yes.
    Mr. Mohseni. Yes, that is correct.
    Mr. Shimkus. And I want to also highlight that Ms. Haney, 
you are their supervisor.
    Ms. Haney. Yes.
    Mr. Shimkus. So if your employees already have a view that 
the Commissioners aren't fully informed, we have a problem 
here. And would like to yield 5 minutes to Mr. Sullivan from 
Oklahoma.
    Mr. Sullivan. Thank you, Mr. Chairman. Before I start my 
questions, I just wanted to--Congressman Gardner had a question 
that I don't think was answered clearly by some of you, and I 
start with Ms. Haney.
    Does the Commission know there is an SER on the shelf with 
no legal objection, there is one on the shelf with no legal 
objection? Yes or no.
    Ms. Haney. They are not aware that there is a no-legal 
objection. They are aware there is an SER on the shelf.
    Mr. Sullivan. That would be no? You can just----
    Ms. Haney. To answer your full question----
    Mr. Sullivan [continuing]. Say no.
    Ms. Haney [continuing]. It would be no.
    Mr. Sullivan. OK. And Mr. Kokajko, could you answer that 
same question? Does the Commission know there is an SER on the 
shelf with no legal objection, just sitting there?
    Mr. Kokajko. I agree, no.
    Mr. Sullivan. No? And Mr. Mohseni, could you answer that 
question, please?
    Mr. Mohseni. I should say I don't know. I am now very 
confused what they do know and what they do not know. It is 
hard to tell exactly. Some of them may know, some may not.
    Mr. Sullivan. That sounds like a problem, doesn't it?
    Mr. Mohseni. It is.
    Mr. Shimkus. If the gentleman would yield for one second?
    Mr. Sullivan. I yield.
    Mr. Shimkus. But it is part of the law that the 
Commissioners have to be fully informed. Is that correct?
    Mr. Mohseni. That is correct.
    Mr. Shimkus. I yield back.
    Mr. Sullivan. Thank you, Mr. Chairman. Last week we took 
testimony from the NRC Inspector General who painted a 
disturbing picture of the Chairman's behavior and actions. Are 
you all familiar with this report, yes or no? And I will start 
with you, Ms. Haney, and go down the line.
    Ms. Haney. Yes.
    Mr. Kokajko. Yes.
    Mr. Mohseni. Yes.
    Mr. Stablein. Yes.
    Ms. Kotra. Sadly, yes.
    Mr. Sullivan. Mr. Mohseni, the IG report found that the 
Chairman acts as the gatekeeper for information to the 
Commission and strategically withholds information to 
manipulate Commission decisions. Are you familiar with that?
    Mr. Mohseni. That is my experience, what I described today, 
based on----
    Mr. Sullivan. That would be yes?
    Mr. Mohseni. Yes, absolutely yes.
    Mr. Sullivan. Mr. Mohseni, aside from the Commission level 
information problems, what do you see in terms of information 
control among senior management?
    Mr. Mohseni. I think the senior managers were contributing 
to suppression of the information.
    Mr. Sullivan. To what extent does information control and 
suppression permeate the activities of your division and would 
you elaborate?
    Mr. Mohseni. Well, one is the famous memo we have been 
talking about where it should have been a policy decision for 
the Commission to make, and we should have developed a policy 
paper, which is the basis for my nonoccurrence on that 
memorandum. Another one is the TER, another one is the budget. 
The budget was influenced adversely by management above me. So 
the information would not get to the entire Commission. 
Similarly the programmatic impact of the budget or other 
decisions would not get out because we never developed a policy 
position to recommend to the Commission for the entire 
Commission to understand fully the implications of what was 
going on. So for the past 2 \1/2\ years, the Commission has 
never received the full information to my knowledge.
    Mr. Sullivan. That is amazing. Dr. Kotra, Dr. Stablein and 
Dr. Kokajko, would you agree with Mr. Mohseni on this? And 
could you add to his perspective?
    Ms. Kotra. I have served on the staff of two Commissioners. 
I am well-experienced in both drafting as well as reviewing 
policy papers for Commissioners. I was fully prepared to draft 
an options paper and wanted to draft an options paper on this 
very important issue. It was not an opportunity I was given. I 
was told to write only a status paper. There were so many 
policy ramifications that we were trying to sort through, and 
it was turned into a status paper. Like I said in my testimony, 
it was with great reluctance that I agreed to do that. I voiced 
my preference for an options paper but went forward as long as 
the status was accurately described.
    Mr. Sullivan. Dr. Stablein?
    Mr. Stablein. I agree with Mr. Mohseni and believe his 
examples are the most apropos that I am aware of.
    Mr. Sullivan. Mr. Kokajko?
    Mr. Kokajko. As I replied in my response to Mr. Mohseni, 
which was formally required, I did tend to agree with him, and 
I think as it turns out, I was correct in that.
    Mr. Sullivan. Ms. Haney, what Commission policy guidance 
directs staff to strip out regulatory findings of the Safety 
Evaluation Report to create the TER?
    Mr. Mohseni. As far as I know, I don't think there is any 
precedence for this----
    Mr. Shimkus. I think he was directing to----
    Mr. Mohseni. I am sorry.
    Mr. Sullivan. Directed toward Ms. Haney. Thank you, Mr. 
Chairman.
    Mr. Shimkus. I am sorry.
    Mr. Sullivan. Thank you, Mr. Chairman.
    Ms. Haney. I was going to say thank you.
    Mr. Sullivan. We will get to you next.
    Ms. Haney. I am not aware of any regulatory guidance that 
would proscribe that.
    Mr. Sullivan. OK. From your email exchange from Mr. 
Mohseni, and that is at Tab 6, page 2, you say your direction 
to strip out staff conclusions on their analysis should be 
consistent with statements made by the Chairman that the 
document would not contain any findings. Was the preparation of 
the TER under the direction of Chairman Jaczko or the 
Commission?
    Ms. Haney. The preparation of the Technical Evaluation 
Report would be under the Commission, but my statement, my 
email, that was one of the considerations that I took into 
consideration.
    Mr. Sullivan. Was the preparation of the TER under the 
direction of Chairman Jaczko or the Commission? Was it, yes or 
no? Can you answer it quickly? How long have you worked there?
    Ms. Haney. I have worked there for multiple years as you 
have heard.
    Mr. Sullivan. OK.
    Ms. Haney. I mean, I was looking at the Technical 
Evaluation as an office document, and I was considering it from 
that standpoint. I did not consider the elements of your 
question.
    Mr. Shimkus. The gentleman's time is----
    Mr. Sullivan. May I ask one more?
    Mr. Shimkus. Quickly.
    Mr. Sullivan. Is there any written document that outlines 
specifically what the Chairman desires you to do?
    Ms. Haney. No.
    Mr. Sullivan. OK. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time is expired. We have votes 
on the floor. We really want to thank you. This is never easy, 
and we appreciate your forthrightness, your calmness under 
stress and strain and we have to have an NRC that the American 
public trusts. You have to have a government that you trust. We 
are all in this together.
    I want to thank the witnesses for coming today and for the 
testimony and members for the devotion to this hearing today. 
The committee rules provide that members have 10 days to submit 
additional questions for the record, and we hope that if they 
do so, in particular, that you would then get those back to us.
    Mr. Green. Mr. Chairman, I would like to join you in 
thanking our witnesses because that is the purpose of our 
committee, and you have heard a lot of our opinions and also 
our questions and appreciate your being here.
    Mr. Shimkus. The hearing stands adjourned.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T2593.029
    
    [GRAPHIC] [TIFF OMITTED] T2593.030
    
    [GRAPHIC] [TIFF OMITTED] T2593.031
    
    [GRAPHIC] [TIFF OMITTED] T2593.032
    
    [GRAPHIC] [TIFF OMITTED] T2593.033
    
    [GRAPHIC] [TIFF OMITTED] T2593.034
    
    [GRAPHIC] [TIFF OMITTED] T2593.035
    
    [GRAPHIC] [TIFF OMITTED] T2593.036
    
    [GRAPHIC] [TIFF OMITTED] T2593.037
    
    [GRAPHIC] [TIFF OMITTED] T2593.038
    
    [GRAPHIC] [TIFF OMITTED] T2593.039
    
    [GRAPHIC] [TIFF OMITTED] T2593.040
    
    [GRAPHIC] [TIFF OMITTED] T2593.041
    
    [GRAPHIC] [TIFF OMITTED] T2593.042
    
    [GRAPHIC] [TIFF OMITTED] T2593.043
    
    [GRAPHIC] [TIFF OMITTED] T2593.044
    
    [GRAPHIC] [TIFF OMITTED] T2593.045
    
    [GRAPHIC] [TIFF OMITTED] T2593.046
    
    [GRAPHIC] [TIFF OMITTED] T2593.047
    
    [GRAPHIC] [TIFF OMITTED] T2593.048
    
    [GRAPHIC] [TIFF OMITTED] T2593.049
    
    [GRAPHIC] [TIFF OMITTED] T2593.050
    
    [GRAPHIC] [TIFF OMITTED] T2593.051
    
    [GRAPHIC] [TIFF OMITTED] T2593.052
    
    [GRAPHIC] [TIFF OMITTED] T2593.053
    
    [GRAPHIC] [TIFF OMITTED] T2593.054
    
    [GRAPHIC] [TIFF OMITTED] T2593.055
    
    [GRAPHIC] [TIFF OMITTED] T2593.056
    
    [GRAPHIC] [TIFF OMITTED] T2593.057
    
    [GRAPHIC] [TIFF OMITTED] T2593.058
    
    [GRAPHIC] [TIFF OMITTED] T2593.059
    
    [GRAPHIC] [TIFF OMITTED] T2593.060
    
    [GRAPHIC] [TIFF OMITTED] T2593.061
    
    [GRAPHIC] [TIFF OMITTED] T2593.062
    
    [GRAPHIC] [TIFF OMITTED] T2593.063
    
    [GRAPHIC] [TIFF OMITTED] T2593.064
    
    [GRAPHIC] [TIFF OMITTED] T2593.065
    
    [GRAPHIC] [TIFF OMITTED] T2593.066
    
    [GRAPHIC] [TIFF OMITTED] T2593.068
    
    [GRAPHIC] [TIFF OMITTED] T2593.069
    
    [GRAPHIC] [TIFF OMITTED] T2593.070
    
    [GRAPHIC] [TIFF OMITTED] T2593.071
    
    [GRAPHIC] [TIFF OMITTED] T2593.072
    
    [GRAPHIC] [TIFF OMITTED] T2593.073
    
    [GRAPHIC] [TIFF OMITTED] T2593.074
    
    [GRAPHIC] [TIFF OMITTED] T2593.075
    
    [GRAPHIC] [TIFF OMITTED] T2593.076
    
    [GRAPHIC] [TIFF OMITTED] T2593.077
    
    [GRAPHIC] [TIFF OMITTED] T2593.078
    
    [GRAPHIC] [TIFF OMITTED] T2593.079
    
    [GRAPHIC] [TIFF OMITTED] T2593.080
    
    [GRAPHIC] [TIFF OMITTED] T2593.081
    
    [GRAPHIC] [TIFF OMITTED] T2593.082
    
    [GRAPHIC] [TIFF OMITTED] T2593.083
    
    [GRAPHIC] [TIFF OMITTED] T2593.084
    
    [GRAPHIC] [TIFF OMITTED] T2593.085
    
    [GRAPHIC] [TIFF OMITTED] T2593.086
    
    [GRAPHIC] [TIFF OMITTED] T2593.087
    
    [GRAPHIC] [TIFF OMITTED] T2593.088
    
    [GRAPHIC] [TIFF OMITTED] T2593.089
    
    [GRAPHIC] [TIFF OMITTED] T2593.090
    
    [GRAPHIC] [TIFF OMITTED] T2593.091
    
    [GRAPHIC] [TIFF OMITTED] T2593.092
    
    [GRAPHIC] [TIFF OMITTED] T2593.093
    
    [GRAPHIC] [TIFF OMITTED] T2593.094
    
    [GRAPHIC] [TIFF OMITTED] T2593.095
    
    [GRAPHIC] [TIFF OMITTED] T2593.096
    
    [GRAPHIC] [TIFF OMITTED] T2593.097
    
    [GRAPHIC] [TIFF OMITTED] T2593.098
    
    [GRAPHIC] [TIFF OMITTED] T2593.099
    
    [GRAPHIC] [TIFF OMITTED] T2593.100
    
    [GRAPHIC] [TIFF OMITTED] T2593.101
    
    [GRAPHIC] [TIFF OMITTED] T2593.102
    
    [GRAPHIC] [TIFF OMITTED] T2593.103
    
    [GRAPHIC] [TIFF OMITTED] T2593.104
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
